                                       SOCIAL SECURITY
MEMORANDUM

Date:      September 25, 2009                                                   Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Aged Claims at the Hearing Level (A-12-08-18071)


           The attached final report presents the results of our audit. Our objectives were to
           (1) assess the age of pending claims in the hearings backlog, (2) identify obstacles that
           prevent claims from being processed timely, and (3) identify best practices that can
           assist in reducing the aged case backlog.

           Please provide within 60 days a corrective action plan that addresses each
           recommendation. If you wish to discuss the final report, please call me or have your
           staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
           (410) 965-9700.




                                                              Patrick P. O’Carroll, Jr.

           Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


          AGED CLAIMS
      AT THE HEARING LEVEL

    September 2009   A-12-08-18071




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                   Executive Summary
OBJECTIVE
Our objectives were to (1) assess the age of the pending claims in the hearings
backlog, (2) identify obstacles that prevent claims from being processed timely, and
(3) identify best practices that can assist in reducing the aged claim backlog.

BACKGROUND
Since Fiscal Year (FY) 2000, hearing receipts have generally exceeded dispositions,
resulting in an increase in the number of hearings pending and aging claims. As the
Office of Disability Adjudication and Review (ODAR) reported, there were
310,852 pending claims at the end of FY 2000. This number increased to
760,813 claims by the end of FY 2008. In FY 2007, the Agency began the Aged Claim
initiative, which emphasized processing the oldest claims in the backlog.

RESULTS OF REVIEW
At the beginning of FY 2009, approximately 38 percent of the pending claims exceeded
1 year in age, and about 4 percent exceeded 2 years. While the percent and number of
aged claims over 1 year old have stabilized, the number of such claims was three times
higher than it was at the end of FY 2002. ODAR’s managers said that (1) a lack of
resources, (2) conflicting priorities in the past, and (3) misplaced or time-consuming
claims have added to the backlog of aged claims. The Aged Claim initiative has
successfully targeted aged claims and focused hearing offices’ efforts on this workload.
ODAR has implemented related initiatives, including (1) realignment of service areas,
(2) case transfers, (3) video hearings, (4) National Hearing Centers, and (5) informal
remands to disability determination services to assist regions and hearing offices in
processing large aged workloads. We believe that as the National Hearing Centers
expand their workloads, they should be integrated with the aged case workload. The
best practices that helped reduce aged claims included sustained leadership and focus,
clear workload milestones, flexibility in moving workloads between offices, and use of
management information reports.

RECOMMENDATIONS
As part of this effort, we recommend the Social Security Administration (SSA):
• Ensure sustained focus on working the oldest claims first even after the Aged Claim
   initiative has ended.
• Instruct field office managers on the importance of providing claim folders to the
   hearing offices to allow for timely processing.
• As the National Hearing Centers expand their workload, ensure they are integrated
   into Agency efforts to minimize the volume of aged claims.

AGENCY COMMENTS
SSA agreed with our recommendations (see Appendix F).


Aged Claims at the Hearing Level (A-12-08-18071)
                                                                        Table of Contents
                                                                                                                    Page

INTRODUCTION ..................................................................................................... 1

RESULTS OF REVIEW .......................................................................................... 5

National Pending Claims ......................................................................................... 5

    •    1-Year-Old Claims ........................................................................................ 6
    •    2-Year-Old Claims ........................................................................................ 8

Reasons for Aged Claims ....................................................................................... 9

    •    Resources .................................................................................................... 9
    •    Conflicting Priorities .................................................................................... 10
    •    Misplaced or Time-Consuming Claims ....................................................... 11

Agency Initiatives to Reduce Aged Claims ............................................................ 11

    •    Aged Claim Initiative ................................................................................... 11
    •    Service Area Realignment Initiative ............................................................ 13
    •    National Hearing Center and Video Hearing Initiatives............................... 16
    •    Informal Remand Initiative ......................................................................... 17

Best Practices to Prevent Claims from Aging ....................................................... 18

CONCLUSION AND RECOMMENDATIONS ....................................................... 19

APPENDICES

APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Hearing Office Selection Criteria
APPENDIX D – Additional Analysis on 2-Year-Old Claims
APPENDIX E – Hearing Office Process Flow Diagram
APPENDIX F – Agency Comments
APPENDIX G – OIG Contacts and Staff Acknowledgments




Aged Claims at the Hearing Level (A-12-08-18071)
                                                                                            Introduction
OBJECTIVE
Our objectives were to (1) assess the age of the pending claims in the hearings
backlog, (2) identify obstacles that prevent claims from being processed timely, and
(3) identify best practices that can assist in reducing the aged claim backlog.

BACKGROUND
Since Fiscal Year (FY) 2000, hearing receipts have generally exceeded dispositions,
resulting in an increase in the number of hearings pending (see Figure 1).

                                             Figure 1: Hearing Workload Trends
                                           (Social Security Administration Claims)

                       860,000

                       760,000
    Number of Claims




                       660,000

                       560,000

                       460,000

                       360,000

                       260,000
                             1997   1998   1999   2000    2001   2002   2003      2004   2005   2006   2007   2008     2009
                                                                    Fiscal Year                                      Estimate

                                                         Receipts       Dispositions        Pending



While there were 310,852 pending claims at the end of FY 2000, this number increased
to 760,813 claims by the end of FY 2008. 1 As a result, the processing time of closed
claims has increased. For example, according to ODAR, the average processing time
for a claim was 258 days in FY 2000 but increased to 514 days in FY 2008.

The Social Security Administration (SSA) is projecting there will be 647,000 dispositions
with 755,000 pending at the end of FY 2009, which represents approximately
6,000 fewer cases in the pending backlog compared to the end of FY 2008, even with


1
 According to the Office of Disability Adjudication and Review (ODAR) management, the actual number
of pending claims at the end of April 2009 dropped below the opening number of pending claims at the
beginning of FY 2009.


Aged Claims at the Hearing Level (A-12-08-18071)                                                                            1
the increase in hearing requests due to the current economy. 2 In his March 24, 2009
testimony before the Subcommittees on Social Security and Family Support,
Commissioner Astrue stated that SSA may receive approximately 50,000 more hearing
requests in FY 2009 than in FY 2008. 3 Even so, the Commissioner stated the Agency
is still on track to eliminate the hearings backlog by 2013.

In FY 2007, SSA began the Aged Claim initiative with emphasis on processing the
oldest claims in the backlog. 4 In his May 2007 testimony before Congress,
Commissioner Astrue stated, “I consider this initiative to be a moral imperative. An
applicant should not have to wait three or four years for his or her day in court.” 5 As
shown in Table 1, the Agency has established a target to eliminate a specific aged
workload for each FY.

            Table 1: Targeted Age of Claims Under the Aged Claim Initiative
            Fiscal Year                Targeted Age of Claims            Number of Identified Claims
               2007                      1,000 days or older                          63,770
               2008                       900 days or older                          135,160
               2009                       850 days or older                          166,838
Note: SSA identified these claims by determining whether the case was already the targeted age or
would be by the end of the FY.

Figure 2 illustrates the progress ODAR has made while eliminating these aged cases
for each of the last three fiscal years. ODAR has successfully eliminated the targeted
aged workloads in FY 2007 and FY 2008, and, at the end of June 2009, had slightly
more than 16,600 of the 850-day old claims left to process.




2
    SSA, FY 2010 Annual Performance Plan.
3
 According to SSA, disability determination service (DDS) backlogs have prevented more claims from
being sent to the hearing offices.
4
  SSA has undertaken over 30 initiatives in 4 areas to eliminate the backlog and prevent its recurrence:
(1) compassionate allowances; (2) improving performance; (3) increasing adjudicatory capacity; and
(4) increasing efficiency with automation and business processes.
5
 Prepared Testimony of Michael J. Astrue, Commissioner of Social Security, before the Senate Finance
Committee, May 23, 2007.


Aged Claims at the Hearing Level (A-12-08-18071)                                                           2
                                                                                Figure 2: Aged Case Projects
                                                                                                           FYs 2007 to 2009

                      400000
   Number of Claims




                      350000
                      300000
                      250000
                      200000
                      150000
                      100000
                       50000
                           0




                                                                                             January


                                                                                                             February




                                                                                                                                                                                    September
                                                                   November


                                                                                  December




                                                                                                                                                                           August
                                                                                                                                                                July
                                                                                                                          March
                                                         October




                                                                                                                                                      June
                                                                                                                                    April


                                                                                                                                              May
                                                                              FY 2007 (1,000 Day)                   FY 2008 (900 Day)       FY 2009 (850 Day)



Figure 3 indicates the proportion of SSA’s dispositions over the last 3 FYs dedicated to
aged claims targeted under the initiative.

                          Figure 3: Aged Claim Initiative as a Portion of Total Dispositions


                                                    700,000

                                                    600,000
                           Number of Dispositions




                                                    500,000

                                                    400,000
                                                                                                                                                                   Other
                                                    300,000
                                                                                                                                                                   Aged
                                                    200,000

                                                    100,000

                                                          0
                                                                         2007                            2008                     2009 (est.)
                                                                                                       Fiscal Year


                                  Note: For this graphic, we are using “aged” as defined by ODAR in its initiative.

To accomplish the processing of the targeted aged claims by the end of each FY,
ODAR’s Office of the Chief Administrative Law Judge (OCALJ) established milestones
for hearing offices. Regional and hearing offices also developed plans for achieving the
aged goals and devoted time to monitoring progress at their levels.




Aged Claims at the Hearing Level (A-12-08-18071)                                                                                                                                         3
SCOPE AND METHODOLOGY

We analyzed the age of pending claims at the end of FY 2008 to identify (1) the number
of claims and percent of the pending hearings workload that were 730 days old or older,
(2) potential bottlenecks in the hearings process, and (3) the best practices used to
process aged claims. We summarized the aged claims by region and hearing office to
identify those components with the largest aged workloads. We then interviewed
regional management teams and visited hearing offices to identify best practices for
eliminating processing bottlenecks.6 We also analyzed aged claims closed in FYs 2007
and 2008 to identify any factors that may have contributed to the aging of the claims.




6
 For a further discussion of our scope and methodology, see Appendix B. Our hearing office selection
criteria can be found in Appendix C.


Aged Claims at the Hearing Level (A-12-08-18071)                                                       4
                                                   Results of Review
At the beginning of FY 2009, approximately 38 percent of the pending claims exceeded
1 year in age and about 4 percent exceeded 2 years. While the percent and number of
aged claims over 1 year old had stabilized, the number of these claims was three times
higher than it was at the end of FY 2002. ODAR managers cite a number of reasons
that led to the backlog of hearing claims, including (1) a lack of resources, (2) conflicting
priorities in the past, and (3) misplaced or time-consuming claims. ODAR’s Aged Claim
initiative has successfully targeted aged claims and focused hearing offices’ efforts on
this workload. ODAR has implemented a number of related initiatives, including Service
Area Realignments, Video Hearings, the National Hearing Centers and Informal
Remands to the DDSs, to assist regions and hearing offices in processing large aged
workloads. We believe that as the National Hearing Centers expand their workloads,
they should be integrated with the aged case workload. Sustained leadership and
focus, clear workload milestones, flexibility in moving workloads between offices, and
use of management information reports has allowed ODAR to reduce aged claims and
return to its earlier policy of hearing the oldest claims first.

NATIONAL PENDING CLAIMS
Over 286,000 (about 38 percent) of the 760,813 pending claims were over 1 year old at
the beginning of FY 2009. 7 About 4 percent of the pending claims exceeded 2 years in
age (see Figure 4).
                          Figure 4: Age of Pending Claims
                           (As of the Beginning of FY 2009)



                                                            34 Percent
                                                             between 1
                                                            and 2 Years
                                                                Old
                 62 Percent
                 Less Than 1
                  Year Old
                                                              4 Percent
                                                             over 2 Years
                                                                 Old




7
    Pending data as of the end of October 2008.


Aged Claims at the Hearing Level (A-12-08-18071)                                            5
1-YEAR-OLD CLAIMS

The percent of pending claims over 1 year old at the beginning of FY 2009 was about
38 percent of total pending claims (see Figure 5). However, this rate had leveled off
since peaking in FY 2006. As noted earlier, the Aged Claim initiative started in FY 2007
when approximately 64,000 aged claims were targeted for processing. The percent of
claims 1 year or older pending in FY 2008 was more than twice as high as the rate in
FY 2002.
                Figure 5: Percent of Hearing Backlog Over 1 Year Old

                              45


                              40
                                                                                                         37.6 %
         Percent of Backlog
          Over 1 Year Old




                              35


                              30


                              25


                              20
                                         17.5%
                              15
                                  2002           2003          2004         2005          2006    2007       2008
                                                                         Fiscal Year


Moreover, since the backlog has continued to grow, the total number of claims over
1 year old is higher than prior years (see Figure 6). The number of claims over 1 year
old at the end of FY 2008 was more than three times greater than it was at the end of
FY 2002.

                                   Figure 6: Number of Claims in the Backlog Over 1 Year Old
                                  300,000


                                                                                                         286,004
                                  250,000
               Number of Claims
                Over 1 Year Old




                                  200,000


                                  150,000


                                  100,000
                                             87,868

                                   50,000
                                          2002          2003      2004         2005        2006   2007       2008
                                                                            Fiscal Year




Aged Claims at the Hearing Level (A-12-08-18071)                                                                    6
In the 10 ODAR regions, we found                     Table 2: Percent of Each Region’s
that the percent of pending claims                Workload Pending for 1 Year or More
1 year or older at the beginning of                   (As of the Beginning of FY 2009)
FY 2009 ranged from 19.1 percent in                                       Percent of Workload
the Boston Region to 49.4 percent in                                             Pending
the Chicago Region. The percent for                    Region                 1 Year or More
each region is shown in Table 2.            Region I: Boston                       19.1
                                            Region II: New York                    33.1
Of the 142 hearing offices, 17 had          Region III: Philadelphia               24.8
more than 50 percent of their pending       Region IV: Atlanta                     41.6
                                            Region V: Chicago                      49.4
workloads over 1 year old, while
                                            Region VI: Dallas                      26.9
35 hearing offices had less than
                                            Region VII: Kansas City                41.6
25 percent of their pending workloads
                                            Region VIII: Denver                    30.1
over 1 year old (see Figure 7).             Region IX: San Francisco               30.1
                                            Region X: Seattle                      43.3


               Figure 7: Percent of Hearing Office Pending Workloads
                                   Over 1 Year Old
                          (As of the Beginning of FY 2009)


                                                                       17 Hearing
                                                                       Offices with
                                                                      More Than 50
                                                                     Percent Pending
                                                                           over
                     90 Hearing
                                                                          1 year
                   Offices with 25
                    to 50 Percent
                    Pending over
                        1 Year

                                                                    35 Hearing
                                                                    Offices with
                                                                  Under 25 Percent
                                                                   Pending over
                                                                      1 Year




Aged Claims at the Hearing Level (A-12-08-18071)                                        7
2-YEAR-OLD CLAIMS                                          Table 3: Percent of Each Region’s
                                                        Workload Pending for 2 Years or More
Of the 10 ODAR regions, we found                             (As of the Beginning of FY 2009)
that the percent of pending claims                                                Percent of Workload
2 years or older the beginning of                                                        Pending
FY 2009 ranged from 0.5 percent in                            Region                 2 Years or More
the Dallas Region to 7.6 percent in               Region I: Boston                         1.9
the Chicago Region (see Table 3 for               Region II: New York                      2.5
each region’s percent). 8 According               Region III: Philadelphia                 0.8
to the Chicago Regional                           Region IV: Atlanta                       4.9
                                                  Region V: Chicago                        7.6
Management Team, the Chicago
                                                  Region VI: Dallas                        0.5
Region has been under-resourced
                                                  Region VII: Kansas City                  4.3
for years, limiting its ability to hire
                                                  Region VIII: Denver                      0.6
administrative law judges (ALJ) and               Region IX: San Francisco                 3.8
support staff. This under-funding                 Region X: Seattle                        3.7
has caused claims to backlog and
age.

Of the 142 hearing offices, we found that 11 hearing offices had 9 percent or more of
their pending workloads over 2 years old. However,108 hearing offices had less than
5 percent of their pending workloads over 2 years old (see Figure 8).

                   Figure 8: Percent of Hearing Office Pending Workloads
                                      Over 2 Years Old
                               (At the Beginning of FY 2009)



                                                                              11 Hearing
                     108 Hearing
                                                                             Offices with
                     Offices with
                                                                            over 9 Percent
                     Less Than 5
                                                                             Pending over
                       Percent
                                                                                2 Years
                     Pending over
                       2 Years
                                                                          23 Hearing
                                                                        Offices with 5
                                                                         to 9 Percent
                                                                        Pending over
                                                                            2 Years



The 11 hearing offices with over 9 percent of their total pending workload over 2 years
old are provided in Table 4. At 15 percent of its pending workload, the Jackson,
Mississippi, Hearing Office had the largest percentage of aged backlog of all hearing
offices in the country. Ten of the 11 hearing offices with the largest aged backlogs are

8
    For additional analysis of the 2-year-old claims, see Appendix D.


Aged Claims at the Hearing Level (A-12-08-18071)                                                 8
located in the Atlanta or Chicago Regions. As shown in Table 3, these two regions had
the highest percent of workloads pending over 2 years in the nation.

         Table 4: Hearing Offices with the Largest 2-Year Pending Workloads
                          (As of the Beginning of FY 2009)
                                                                                        Aged as a
                                                                                        Percent of
                                                             Total          Total         Total
           Hearing Office                   Region          Pending         Aged         Pending
     Jackson, Mississippi                 Atlanta               7,575         1,145         15
     Lansing, Michigan                   Chicago                6,731           939         14
     Indianapolis, Indiana               Chicago               11,056         1,533         14
     Greenville, South Carolina           Atlanta               9,600         1,316         14
     Oak Park, Michigan                  Chicago               10,876         1,348         12
     Oak Brook, Illinois                 Chicago                4,428           482         11
     Greensboro, North Carolina           Atlanta               9,805         1,055         11
     Miami, Florida                       Atlanta               4,637           492         11
     Atlanta (North), Georgia             Atlanta              11,991         1,255         10
     Grand Rapids, Michigan              Chicago                8,499           888         10
     Tucson, Arizona                   San Francisco            2,664           262         10

REASONS FOR AGED CLAIMS
ODAR managers cite a number of reasons that led to the backlog of hearing claims,
including (1) a lack of resources, (2) conflicting priorities, and (3) misplaced or time-
consuming claims. According to the OCALJ, factors contributing to high pending
workloads resulting in aged claims include high receipts, low staffing ratios in hearing
offices, varying staff productivity, and space availability. Regional and hearing office
managers cited similar factors, as well as such additional factors as conflicting
processing time goals, case postponements, misplaced claims, and claims that are
difficult to schedule, such as hearings at prisons.

RESOURCES

ODAR has not always been able to obtain the ALJs it needed to process its workload.
For example, in FY 2000, when the pending backlog was growing, ODAR was
precluded from hiring ALJs because of ongoing litigation. 9 Since FY 2004, ODAR has
been hiring additional ALJs and hearing office staff. The FY 2009 appropriation, as well
as $500 million in additional funding related to processing disability and retirement
workloads 10 should assist ODAR in expanding the resources available to handle its

9
 With the exception of a 1-time hiring of 126 ALJs in early FY 2002, ODAR was precluded from hiring
ALJs between 1999 and 2004 because of the Azdell litigation. In 2004, OPM reactivated the ALJ register,
and ODAR was able to hire 103 ALJs in the spring and summer of 2004.
10
  These additional funds were provided under the American Recovery and Reinvestment Act of 2009,
Pub. L. No. 111-5, Division A, Title VIII (H.R. 1-71 to H.R. 1-72).


Aged Claims at the Hearing Level (A-12-08-18071)                                                     9
workloads. 11 For example, at the time of our review, ODAR stated it plans to hire
approximately 157 ALJs and 850 support staff in the field in FY 2009. In addition, the
Agency is opening 14 new hearing offices nationwide. These additional resources
should assist ODAR to keep dispositions above receipts and eliminate the backlog—
both aged claims and regular claims.12

CONFLICTING PRIORITIES

Agency policy and procedures require that hearing offices process the oldest claims
first. ODAR’s Hearings, Appeals and Litigation Law (HALLEX) manual states “The
Hearing Office Chief ALJ generally assigns claims to ALJs from the master docket on a
rotational basis, with the earliest (i.e., oldest) [requests for hearings] receiving priority,
unless there is a special situation which requires a change in the order in which a case
is assigned.” 13 The exceptions to this general rule include such special situations as
critical claims, remands, and dismissals. 14

In our interviews, one Regional Chief ALJ stated that conflicting timeliness goals in the
past contributed to hearing offices ignoring the oldest claims. For instance, during
FY 2002, ODAR set timeliness goals for percent of claims processed in 180 days and
270 days. This observation is consistent with comments made during earlier audits. In
2003, during audit work on best practices at hearing offices,15 an OCALJ official noted
that the hearing offices were facing competing goals on dispositions and timeliness.
Since aged claims could take more time to process, they would be put aside to allow an
office to process more claims and meet shorter timeliness goals. This official
questioned the logic of having goals that ran counter to the “oldest claims first”
approach. Our review of Agency reports found examples of this focus on shorter-term
goals, such as a FY 2002 annual report stating, “Of the more than 532,000 claims
processed, we decided nearly 18 percent within 180 days of the request for hearing,
slightly below our 20 percent goal.”16

Our 2004 report on best practices 17 cited the processing of the oldest claims first as a
best practice to improve timeliness and found that all 12 high-performing offices we
contacted were following this policy. In our report, we noted, “We realize that

11
     We are conducting a separate set of reviews assessing ODAR’s use of the Recovery Act funds.
12
     ODAR’s goal for eliminating the backlog is FY 2013.
13
     SSA, HALLEX I-2-1-55, A—Assignment of Service Area Cases to Administrative Law Judges.
14
     SSA, HALLEX I-2-1-55, D—Assignment of Service Area Cases to Administrative Law Judges.
15
  SSA Office of the Inspector General (OIG), Best Practices in the Highest Producing Hearing Offices
(A-12-04-14020), August 2004.
16
     SSA, Office of Hearings and Appeals: 2002 Annual Report, November 2002.
17
     SSA OIG, Best Practices in the Highest Producing Hearing Offices (A-12-04-14020), August 2004.



Aged Claims at the Hearing Level (A-12-08-18071)                                                       10
processing the oldest claims is time consuming, and takes resources away from
meeting disposition goals; however…processing the oldest claims first should be a
priority since it serves the claimants who have been waiting the longest.” The Aged
Claim initiative is a clear indication that ODAR is again focusing on this “oldest case
first” methodology.

MISPLACED OR TIME-CONSUMING CLAIMS

Misplaced or hard to schedule claims were also cited as contributing to aged claims. In
our interviews with hearing office management teams, we were told that prison hearings
can be difficult to schedule because prisoners may move, and the hearing needs to be
rescheduled. 18 In addition, claimants or their representatives may request that a
hearing be rescheduled, which can lengthen the time it takes to hear the case. 19
Finally, OCALJ managers noted that some claims were old before the hearing office
received them. When we spoke to OCALJ staff about the issue of misplaced claims, we
were provided with a listing of 721 claims that were already old when they arrived at the
hearing office. The average age of these claims was 833 days. OCALJ staff stated
these claims were misplaced at the field offices and sent to the hearing office after
being located. 20

AGENCY INITIATIVES TO REDUCE AGED CLAIMS
In addition to the Aged Claim initiative, which has successfully targeted aged claims and
focused hearing offices’ efforts on this workload, SSA has a number of other initiatives
to assist in reducing the number of aged claims. These initiatives include (1) Service
Area Realignments (SAR), (2) National Hearing Centers (NHC), (3) Video Hearings,
and (4) Informal Remands.

AGED CLAIM INITIATIVE

ODAR’s Aged Claim initiative has successfully targeted aged claims and focused
hearing offices’ efforts on this workload. ODAR reported that by the end of FY 2007,
the Aged Claim initiative had eliminated most of the 63,770 claims that would be at least


18
     We are planning to conduct a separate review on prison hearings.
19
  In our June 2008 report, Quick Response Evaluation: Timeliness of Medical Evidence at Hearing
Offices (A-05-08-28106), we noted that about 52,000 hearing claims, or 9 percent of the FY 2007
dispositions, were postponed for a variety of reasons, including the “representative request,” “claimant
was unavailable,” and “representative was unavailable.”

20
  We discussed the need for greater attention on missing claims in our March 2007 audit of
Management’s Use of Workload Status Reports at Hearing Offices (A-12-06-26130). The 721 claims
were sent to 129 different hearing offices, with the Bronx Hearing Office receiving the most (39 claims).
We randomly reviewed 45 of the 721 claims and discovered that 13 were electronic folders and 32 were
paper folders.



Aged Claims at the Hearing Level (A-12-08-18071)                                                           11
1,000 days old by the end of the FY. 21 After adjudicating the 1,000-day old claims,
ODAR disposed of the majority of the 135,160 targeted aged claims that would be over
900 days old by the end of FY 2008. 22 As noted earlier, the new target under the Aged
Claim initiative is claims that will be 850 days old by the end of FY 2009. ODAR
reported that as of the end of June 2009, about 16,600 of these claims were still
awaiting disposition.

During this period, OCALJ was also identifying aged claims, highlighting the priority
claims, and setting milestones for working down these aged claims. For instance, in a
December 21, 2007 memorandum to the 10 RCALJs, 23 the Chief ALJ (CALJ)
addressed bi-weekly reports that were to be sent to each RCALJ identifying 24

      • all claims that will mature to 900 days or more by the end of FY 2008;
      • the top 200 aged claims pending;
      • claims currently pending 1,000 days or over; and
      • the top 5 claims pending in each status code. 25

The CALJ also established milestones for this workload to ensure the aged claims could
be worked in FY 2008, including

      • February 29, 2008 - completion of claims pending Master Docket through Work
        Up 26 processes;
      • June 27, 2008 - all aged claims ALJ Review Pre-Hearing through Ready to
        Schedule should be scheduled;
      • August 15, 2008 - all claims pending assigned for Writing; and
      • September 26, 2008 - all claims closed.



21
 ODAR reported it finished FY 2007 with 108 target claims remaining or .17 percent of the anticipated
workload.
22
 ODAR reported it finished FY 2008 with 281 target claims remaining or .21 percent of the anticipated
workload.
23
  A similar memorandum was issued again by the CALJ to RCALJs on November 26, 2008 in relation to
the 850-day old claims.
24
  The memorandum also identified other standard reports in the Case Processing and Management
System and Disability Adjudication Reporting Tools that could be used to track the aged workload.
25
     See Appendix E for a list of steps in the hearing process. Each step is related to a status code.
26
  The Work Up status indicates the claim has been assigned to a senior case technician for preparing
exhibits and medical summaries.



Aged Claims at the Hearing Level (A-12-08-18071)                                                         12
RCALJs were also expected to highlight the importance of the initiative among
management and staff. 27 Finally, each region was expected to provide the CALJ with a
plan to eliminate the 900-day-old claims by the end of the FY.

ODAR met the 900-day-old claim target through the concerted efforts of the entire
organization. ODAR established other initiatives including the transference of
workloads, the use of the NHC, video technology, and informal remands. Most of these
new initiatives allowed hearing offices from any part of the country to assist other
offices. We describe these initiatives below.

SERVICE AREA REALIGNMENT INITIATIVE

A complementary initiative aimed at reducing aged claims is the SAR 28 initiative, which
was implemented in FY 2007. The SAR initiative is directed by OCALJ and has a two-
phased strategy. The first phase includes permanent interregional transfer of claims,
which ODAR stated was designed to decrease aged pending workloads of heavily
impacted offices between regions.29 Once the flow of transfer claims began, phase two
involved realigning specific SSA field offices in high workload regions to hearing offices
in lower workload regions. This meant that new claims would be processed and heard
in hearing offices in a different part of the country from where the claimant lived.

During FY 2008, OCALJ used the SAR initiative to rebalance pending claims in the
regions (see Figure 9). In FY 2008, the Chicago and Kansas City Regions had large
numbers of claims assigned to other regions as part of SAR and permanent case
transfers. The Chicago Region transferred out over 30,000 claims, while the Kansas
City Region transferred out over 7,500 claims. The San Francisco Region received
nearly 20,000 claims, and the Boston Region received more than 6,200 claims. The
National Hearing Center in Falls Church, Virginia received almost 4,400 claims in
FY 2008.




27
  As noted earlier, hearing offices are focusing on an aged workload that would not have accrued to this
level had the “oldest case first” policy been followed. There will always be an “aged” group in any
workload, but adherence to policy would have prevented this volume of claims from exceeding
1,000 days in age.
28
     We are planning a separate audit of the SAR initiative.
29
  Other reasons claims are transferred include incorrect jurisdiction or claimant relocation. Claims are
also temporarily transferred between the Regions for workload assistance such as decision writing and
case pulling.


Aged Claims at the Hearing Level (A-12-08-18071)                                                           13
                                 Figure 9: Transfers Among Regions/Locations in FY 2008


                             Region I: Boston                                                                        6,227
                          Region II: New York                                                -229
                       Region III: Philadelphia                                                                    5,629
                                                                                                           1,043
   Region/Location




                            Region IV: Atlanta
                           Region V: Chicago      -30,204

                             Region VI: Dallas                                                            486
                      Region VII: Kansas City                                     -7,508
                          Region VIII: Denver                                                             90                 19,847
                     Region IX: San Francisco
                             Region X: Seattle                                                            247
                     National Hearing Centers                                                                   4,381




                                                                                                                     00




                                                                                                                                  00
                                              0




                                                          0




                                                                         0




                                                                                       0




                                                                                                    0
                                            00




                                                        00




                                                                       00




                                                                                     00




                                                                                                                   ,0




                                                                                                                                ,0
                                          0,




                                                      0,




                                                                     0,




                                                                                   0,




                                                                                                                10




                                                                                                                             20
                                       -4




                                                   -3




                                                                  -2




                                                                                -1
                                                                         Number of Claims Transferred

Note: The blue bar indicates claims were received in the Region, and the red bar indicates claims were
sent from the Region.

In Table 5, we provide information on the pending claims per ALJ at the beginning of
FY 2008. The significant pending counts per ALJ in the Chicago and Kansas City
regions support ODAR’s decision to transfer claims from these regions to other regions
with smaller pending workloads. While the Atlanta region has a large aged backlog, its
pending claims per ALJ is less than in Chicago or Kansas City.

                         Table 5: Pending Claims per ALJ by Region at the end of FY 2008
                                                                                                        Percent of Hearing Offices
                                                                                                        in Region Where Pending
                                                                                                         Claims per ALJ Exceed
            Region                                            Pending Claims per ALJ                          1,000 claims
 Region I: Boston                                                      284                                          0
 Region II: New York                                                   717                                          29
 Region III: Philadelphia                                              525                                          0
 Region IV: Atlanta                                                    789                                          16
 Region V: Chicago                                                    1,042                                         65
 Region VI: Dallas                                                     577                                          6
 Region VII: Kansas City                                               974                                          43
 Region VIII: Denver                                                   610                                          0
 Region IX: San Francisco                                              402                                          0
 Region X: Seattle                                                     691                                          0
 National                                                              702                                          18
Note: Information taken from our August 2008 Congressional Response Report: Administrative Law
Judge and Hearing Office Performance (A-07-08-28094).

In Figure 10, we illustrate one example of how SAR was used to balance workloads at a
hearing office. The Springfield, Missouri, Hearing Office in the Kansas City Region had
an aged pending workload of 9 percent of its total workload of 4,219 claims in FY 2008.


Aged Claims at the Hearing Level (A-12-08-18071)                                                                                       14
The Springfield Hearing Office permanently transferred 1,531 claims to 60 different
hearing offices in FY 2008. In terms of the top six hearing offices receiving these
transferred cases, two were in the San Francisco Region, three were in the Kansas City
Region (the same Region as the Springfield Hearing Office), and one was in the Dallas
Region. The Long Beach, California, Hearing Office in the San Francisco Region
received 839 claims, representing nearly 55 percent of total claims transferred from
Springfield. In addition, the San Diego Hearing Office, also located in the San
Francisco Region, received more than 32 percent of claims transferred from Springfield,
or 497 claims. Overall, the San Francisco Region received most of the transferred
claims from the Springfield Hearing Office in FY 2008.

                    Figure 10: Permanent Claims Transfers from the
                    Springfield, Missouri, Hearing Office in FY 2008




       Note: Counts next to city names represent the number of claims transferred.

Case transfers and realignments are also occurring within regions to ensure workloads
are distributed evenly and aged claims are eliminated. While the SAR initiative relates
to intra-regional transfers and realignments and is directed by the OCALJ, transfers and
realignments within each region are directed by each RCALJ.

For example, the Lansing, Michigan, Hearing Office in the Chicago Region transferred
2,305 claims to 77 hearing offices within the nation in FY 2008 (see Figure 11). The
majority of the claims were transferred elsewhere in the Chicago Region. For example,
about 686 (30 percent) of these claims went to the Minneapolis, Minnesota, Hearing
Office and another 575 (25 percent) were transferred to the Evanston, Illinois, Hearing
Office. These transfers helped evenly distribute the Region’s workload. The Lansing
Hearing Office reported an aged pending workload of 14 percent of its total workload in


Aged Claims at the Hearing Level (A-12-08-18071)                                      15
FY 2008, whereas the Minneapolis and Evanston Hearing Offices had aged pending
workloads of 1 percent and 6 percent, respectively. Moreover, at the beginning of
FY 2008, the Minneapolis and Evanston Hearing Offices had fewer case receipts per
day per ALJ compared to the Lansing Hearing Office.

                        Figure 11: Permanent Claims Transfers from the
                          Lansing, Michigan, Hearing Office in FY 2008




           Note: Counts next to city names represent the number of claims transferred.


NATIONAL HEARING CENTER AND VIDEO HEARING INITIATIVES

Along with SAR, ODAR implemented the NHC initiative to assist processing claims in
heavily impacted hearing offices. Under this plan, ODAR opened a NHCs in Falls
Church, Virginia, and Albuquerque, New Mexico, in FY 2008. ODAR opened a third
NHC in Chicago, Illinois, in June 2009 and planned a fourth NHC for Baltimore,
Maryland, in July 2009. A second, related initiative is the Video Hearing initiative, 30
which was designed to increase adjudicatory capacity and efficiency with a focus on the
electronic hearing process. Together, these initiatives assist ODAR with claims
transferred within and between regions since they allow distant hearing offices and the
NHCs to meet with claimants via video and decide claims. 31

30
     We are conducting an audit of the Video Hearing initiative and plan to issue a report in early FY 2010.
31
  ODAR has other efforts underway that will increase adjudicatory capacity at the Agency, including
establishing new hearing offices in Anchorage, Alaska; Phoenix, Arizona; Tallahassee, Florida; Tampa/St.
Petersburg, Florida; Covington, Georgia; Valparaiso, Indiana; Topeka, Kansas; Livonia, Michigan; Mt.
Pleasant, Michigan; Fayetteville, North Carolina; Akron, Ohio; Toledo, Ohio; Auburn, Washington; and
Madison, Wisconsin.


Aged Claims at the Hearing Level (A-12-08-18071)                                                           16
In FY 2008, the Falls Church NHC received 4,381 claim transfers and issued
2,151 decisions. The NHC had 2,230 pending claims at the beginning of FY 2009.
However, we found that most of the hearing offices with the largest 2-year-old pending
workloads did not have claims pending at the NHC. Of the 11 hearing offices with
10 percent or more of their pending claims 2 years or older, only claims in the
Indianapolis and Oak Park Hearing Offices were pending at the NHC (see Table 4 on
page 9). According to ODAR, claims transferred into the NHC come from areas of the
country with the largest backlogs. All hearings conducted at the NHC are done using
video conferencing equipment.

Most of the 2,230 claims pending at the NHC at the beginning of FY 2009 came from
the Detroit, Michigan; Cleveland, Ohio; and Atlanta, Georgia, Hearing Offices.

   •   Detroit Hearing Office: 747 claims were pending in the NHC (7 percent of the
       hearing office’s workload) – the Detroit Hearing Office had 10,273 pending claims
       with 6 percent being over 2-year old pending claims.
   •   Cleveland Hearing Office: 619 claims were pending in the NHC (6 percent of
       the hearing office’s workload) – the Cleveland Hearing Office had
       10,407 pending claims with 2 percent being over 2-year old pending claims.
   •   Atlanta Hearing Office: 457 claims pending in the NHC (6 percent of the
       hearing office’s workload) – the Atlanta Hearing Office had 7,923 pending claims
       with 8 percent being over 2-year old pending claims.

Informal Remand Initiative

The Informal Remand initiative was developed to increase ODAR’s adjudicatory
capacity and reduce the paper case backlog (mostly aged claims) by having DDSs
consider re-opening certain claims based on specific profiles established by the Office
of Quality Performance. DDSs review these claims, and if they can make a fully
favorable determination, claims are returned to SSA field offices for adjudication.
Although the initiative was intended to reduce the backlog of paper claims, it was
extended to electronic claims in March 2008.

According to SSA, in slightly less than 2 years since the initiative began, DDSs have
processed more than 100,000 informal remands and issued fully favorable
determinations in over 35,000 claims. Should the DDS not be able to make a fully
favorable decision, the case is developed with updated medical evidence, if possible,
and returned to ODAR. This updated medical evidence should assist the hearing
offices with their own processing of these claims.




Aged Claims at the Hearing Level (A-12-08-18071)                                          17
BEST PRACTICES TO PREVENT CLAIMS FROM AGING
Based on our fieldwork and discussions with ODAR management and staff, we
identified a number of best practices that contributed to the elimination of older claims:

      •    sustained leadership and focus on “oldest claims first” by management,
      •    the establishment of clear milestones for processing the aged workload,
      •    flexibility in the assignment of claims within and between regions, and
      •    use of management information reports allowing managers to identify aging
           claims that need to be processed or shifted to other locations to meet the
           initiative’s goals.

As we noted earlier, at the start of each FY, OCALJ has identified the aged claims being
targeted, established processing milestones, and highlighted the management reports
that can assist managers in monitoring this workload. In our discussions with the five
regional management teams and six hearing office management teams,32 we learned
that they all are focusing their efforts on processing the oldest claims. Moreover, the
use of case transfers, SAR and the NHCs by management in Headquarters, as well as
the use of transfers within regions as directed by the RCALJs, has provided ODAR with
additional flexibility as it eliminates the aged claims. Finally, the Case Processing and
Management System and Disability Adjudication Reporting Tools management
information reports have assisted managers in locating aged claims and monitoring the
reduction of these claims.

Management’s focus on processing the oldest claims first has put ODAR’s hearing
process back in compliance with its own policies and procedures. Sustained focus,
combined with additional resources for greater hiring and new or expanded hearing
offices, will assist ODAR as it reduces the overall backlog of claims and ensures each
claimant timely receives his or her day in court.




32
     See Appendix C for a list of the regional and hearing offices we visited or contacted.


Aged Claims at the Hearing Level (A-12-08-18071)                                              18
                                                     Conclusion and
                                                   Recommendations
ODAR’s Aged Claim initiative has successfully targeted aged claims and focused
hearing offices’ efforts on this workload. Moreover, ODAR has implemented a number
of related initiatives to process aging workloads, including SAR, NHC, Video Hearings
and Informal Remands. While the number and percent of aged cases has leveled off,
there are still challenges related to aging workloads. In addition, SSA will need to be
diligent in addressing imbalances in aged workloads among the regional and hearing
offices until new hearing offices and extra resources can begin to rebalance the
workload. Finally, it is important that field offices provide the claims to the hearing
offices in a timely manner so they can be timely processed. Overall, we found that the
best practices for reducing the aged backlog included sustained leadership by ODAR
management, establishment of clear milestones, flexibility in transferring aged
workloads around the country, and the use of management information reports to
identify and track aged claims.

RECOMMENDATIONS
To assist the Regions and hearing offices to reduce their aged claims workload, we
recommend SSA:

1. Ensure sustained focus on working the oldest claims first even after the Aged Claim
   initiative has ended.

2. Instruct field office managers on the importance of providing claim folders to the
   hearing offices to allow for timely processing.

3. As the NHCs expand their workload, ensure they are integrated into Agency efforts
   to minimize the volume of aged claims.

AGENCY COMMENTS
SSA agreed with our recommendations (see Appendix F).




Aged Claims at the Hearing Level (A-12-08-18071)                                        19
                                            Appendices




Aged Claims at the Hearing Level (A-12-08-18071)
                                                                  Appendix A

Acronyms
 ALJ               Administrative Law Judge
 ARPR              Administrative Law Judge Pre-Hearing Review
 CALJ              Chief Administrative Law Judge
 DDS               Disability Determination Services
 FY                Fiscal Year
 HALLEX            Hearings, Appeals and Litigation Law Manual
 NHC               National Hearing Center
 OCALJ             Office of the Chief Administrative Law Judge
 ODAR              Office of Disability Adjudication and Review
 OIG               Office of the Inspector General
 RTS               Ready to Schedule
 SAR               Service Area Realignment
 SSA               Social Security Administration
 UNWK              Unassigned Workup




Aged Claims at the Hearing Level (A-12-08-18071)
                                                                       Appendix B

Scope and Methodology
To accomplish our objective, we:

•   Reviewed prior Office of the Inspector General reports related to processing hearing
    claims at hearing offices.

•   Reviewed the Office of Disability Adjudication and Review’s (ODAR) Hearings,
    Appeals and Litigation Law manual, and other relevant policies and procedures.

•   Reviewed Chief Administrative Law Judge bulletins and management information
    reports used to identify aged claims.

•   Reviewed the Agency’s backlog reduction initiatives to identify those related to
    reducing aged claims.

•   Extracted and analyzed end of Fiscal Year (FY) 2008 pending claims found in
    ODAR’s Case Processing and Management System to identify the number and
    percent of aged claims that were over 1 and 2 years old. We then sorted the aged
    claims by regions and hearing offices to identify where the aged claims were
    located.

•   Randomly selected 50 aged claims closed in FY 2007 and 50 aged claims closed in
    FY 2008 to identify the bottlenecks in the hearing process and learn why the claims
    became aged. Older claims were summarized by program type, disability, diagnosis
    code, and age of claimant to see whether these characteristics impacted the
    processing of claims.

•   Interviewed five regional management teams and visited six hearing offices to
    identify best practices for eliminating processing bottlenecks to reduce aged claims
    (see Appendix C).

•   Discussed our findings with ODAR staff and management.

We found the disposition data used in our review to be sufficiently reliable to meet our
audit objective. The entity audited was the Office of the Deputy Commissioner for
Disability Adjudication and Review. We conducted this performance audit from
September 2008 through June 2009 in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.


Aged Claims at the Hearing Level (A-12-08-18071)
                                                                               Appendix C

Hearing Office Selection Criteria
The Social Security Administration’s (SSA) Office of Disability Adjudication and Review
(ODAR) has 142 hearing offices throughout the United States and Puerto Rico. The
hearing offices range in size from small offices (fewer than seven administrative law
judges [ALJ]) to medium hearing offices (seven or eight ALJs) and large hearing offices
(more than eight ALJs). All hearing offices have the same core staff and perform the
same function—hold hearings and issue decisions as part of SSA's process for
determining whether a person may receive benefits.

We selected six hearing offices based on a combination of factors. One factor was
hearing office size (small, medium or large). Another factor was hearing office
performance. We used two measures that ODAR deemed most important:
(1) disposition rate (number of dispositions per day per ALJ) and (2) average processing
time. Each hearing office was ranked by disposition rate and average processing time
over the last 3 fiscal years (FY). Hearing offices that were in the top 20 for either the
disposition rate or average processing time for 2 of the past 3 FYs were considered top
performers. Hearing offices that were in the bottom 20 for either disposition rate or
average processing time for 2 of the past 3 FYs were considered low performers. We
also considered a wide geographic distribution to maximize national coverage.

HEARING OFFICES SELECTED FOR THIS REVIEW
We selected 1 small, 1 medium, and 1 large hearing office in the top 20 performing
hearing offices for either the disposition rate or average processing time (see
Table C-1).

                       Table C-1: Top Performing Hearing Offices
 Hearing Office Name                     Region            Hearing Office Size
 Charlottesville, Virginia     Region III: Philadelphia           Small
 Shreveport, Louisiana         Region VI: Dallas                 Medium
 Albany, New York              Region II: New York                Large
Note: Performance level based on the number of dispositions per day per ALJ or average processing
time for FYs 2006-2008.




Aged Claims at the Hearing Level (A-12-08-18071)                                                    C-1
We selected one small, one medium, and one large hearing office in the bottom
20 performing hearing offices (see Table C-2).

                     Table C-2: Low Performing Hearing Offices
 Hearing Office Name                Region             Hearing Office Size
 Springfield, Missouri      Region VII: Kansas City            Small
 Lansing, Michigan          Region V: Chicago                Medium
 Portland, Oregon           Region X: Seattle                  Large
Note: Performance level based on the number of dispositions per day per ALJ or average processing
time for FYs 2006-2008.

We also spoke to regional office management teams in five Regions: Philadelphia
(Region III), Atlanta (Region IV), Chicago (Region V), Dallas (Region VI), and San
Francisco (Region IX).




Aged Claims at the Hearing Level (A-12-08-18071)                                                    C-2
                                                                                     Appendix D

Additional Analysis on 2-Year-Old Claims
We reviewed the pending claims at the beginning of Fiscal Year (FY) 2009 to assess
the nature of the over 2-year-old aged backlog. Approximately 30,000 claims, or
4 percent, were over 2 years old. The majority of these over 2-year-old claims were
initial hearing requests (see Figure D-1). Another 10 percent of the aged claims related
to subsequent hearings, 1 with Appeals Council and court remands accounting for about
1 percent of the aged claim workload.

                  Figure D-1: Claims over 2 Years Old by Hearing Type
                        (As of the Beginning of Fiscal Year 2009)

                                                                        1 Percent
                                                                         Appeals
                                                                       Council and
                                                                          Court
                                                                        Remands


               89 Percent
              Initial Hearing                                            10 Percent
                                                                         Subsequent
                                                                          Hearings




Trends Related to Prior Aged Claims

Based on our analysis of a random sample of 50 aged claims closed in FY 2007 and
50 aged claims closed in FY 2008 under the Aged Claim initiative, we found that claims
were delayed in two hearing office processing stages before the actual hearing. 2 For
instance, 35 percent of the claims were delayed in ALJ Review Pre-Hearing (ARPR) 3
1
  Following the initial hearing, a second or subsequent hearing may occur for a number of reasons.
ODAR records up to 16 subsequent hearings. There are no special procedures for expediting these
claims as the claimant has already received a decision on the prior claim. These claims are processed in
request for hearing date order.
2
 See Appendix E for an illustration of the status placed on a claim as it progresses through the Office of
Disability Adjudication and Review’s (ODAR) hearing process.
3
 A claim is placed in ARPR status code to indicate an ALJ was reviewing the claim before the hearing to
determine whether enough evidence was present to hold the hearing and determine whether expert
witnesses were needed.


Aged Claims at the Hearing Level (A-12-08-18071)                                                      D-1
status with an average time of 79 days spent in the status (see Table D-1). In addition,
30 percent of the claims were in Ready to Schedule (RTS) 4 status with an average
processing time of 217 days (see Table D-2).

                Table D-1: Analysis of 100 Randomly Selected Aged Claims
                            – ALJ Pre-Hearing Review (ARPR) –
                       (50 Processed in Each of FYs 2007 and 2008)1
                                          ARPR Status –
                       Number of         Claims in Status                             Average Time
                        Claims           more than 2 times          Percent of        Claims Spent
     Fiscal Year       Reviewed         ODAR’s Benchmark1            Claims           ARPR Status
    FY 2007                 50                     15                    30              78 days
    FY 2008                 50                     20                    40              80 days
    Total (avg.)           100                     35                    35              79 days
    Note 1: ODAR’s benchmark is 10 days for ARPR status. OCALJ benchmark is 7 days for ARPR
    status.

                Table D-2: Analysis of 100 Randomly Selected Aged Claims
                               – Ready to Schedule (RTS) –
                       (50 Processed in Each of FYs 2007 and 2008)1
                                         RTS Status – Claims
                       Number of         in Status More Than                          Average Time
                        Claims             2 times ODAR’s           Percent of        Claims Spent
     Fiscal Year       Reviewed              Benchmark1              Claims            RTS Status
    FY 2007                 50                     14                    28             201 days
    FY 2008                 50                     16                    32             232 days
    Total (avg.)           100                     30                    30             217 days
    Note 1: ODAR’s benchmark is 60 days for RTS status. OCALJ has no benchmark for RTS status.

Prior OIG audits have found similar problems with claims at these points in the
process. 5 Continued attention to the Case Processing and Management System
management reports, particularly the No Status Change report, will be necessary to
ensure the claims continue to move through the hearing process.

Even with these delays, the greatest contributor to the age of these claims was the
waiting period in Unassigned Workup (UNWK) status before anyone in the hearing
office initiated action on the case. 6 On average, about 54 percent of the age of the
1,000-day-old claims we reviewed related to their time in UNWK status (see Table D-3).
4
  A claim is placed in RTS status code when all workup, pre-development and certification activities have
been completed. In our March 2007 report, Management’s Use of Workload Status Reports at Hearing
Offices (A-12-06-26130), we noted that 75 percent of pending claims were bottlenecking in ARPR status
for 20 or more days, and 42 percent of pending claims were bottlenecking in RTS status for 120 or more
days.
5
 SSA OIG, Management’s Use of Workload Status Reports at Hearing Offices (A-12-06-26130),
March 2007.
6
    The UNWK status code indicates a claim is “inactive” and awaiting processing.


Aged Claims at the Hearing Level (A-12-08-18071)                                                    D-2
       Table D-3: Reasons Why 12 Aged Claims Took over 1,000 Days to Process
                                               Days in UNWK
              Disability Indicator                Status              Age of Claim            Decision
    Non-Disability                                   783                  1,036           Withdrawal
    Autistic Disorder                                751                  1,022           Favorable
    Skin Disorder                                    737                  1,031           Unfavorable
    Circulatory System Disease                       722                  1,066           Unfavorable
    Borderline Intellectual Functioning              719                  1,064           Unfavorable
    Osteoarthritis                                   704                  1,050           Unfavorable
    Asthma                                           611                  1,057           Unfavorable
    Chronic Pulmonary Insufficiency                  530                  1,026           Favorable
    Valvular Heart Disease                           433                  1,066           Unfavorable
    Back Disorder/Affective Disorder                 419                  1,024           Unfavorable
    Non-Disability                                   185                  1,147           Dismissal
    Back Disorder                                    198                  1,101           Unfavorable
    Number of Days                                  6,792                12,690
    Average Number of Days                           566                  1,058

We also found that the most common disability noted by claimants with claims that
exceeded 1,000 days of processing time related to (1) back disorders and (2) affective
disorders, as well as (3) osteoarthritis. 7 These three disabilities related to about
33 percent of the individuals in our sample. 8

                    Table D-4: Diagnosis Codes Related to 100 Aged Claims
                                 (Fiscal Years 2007 and 2008)
                                                       Nu m b e r of          Nu m b e r of           To ta l
                 Dia g n o s is Co d e s             Cla im s FY 2007       Cla im s FY 2008         Cla im s
    Back Disorders                                            9                     12                 21
    Affective Disorders                                       3                      3                  6
    Osteoarthritis                                            3                      3                  6
    Diabetes Mellitus                                         3                      1                  4
    Ischemic Heart Disease                                    0                      3                  3
    Asthma                                                    0                      3                  3
    Organic Mental Disorders                                  1                      2                  3




7
    We only show the primary diagnosis codes that appeared three or more times.
8
  Not all the cases were disability related or contained a valid disability code, so the percent of cases
related to these disabilities may be higher.


Aged Claims at the Hearing Level (A-12-08-18071)                                                         D-3
                                                                                                          Appendix E

Hearing Office Process Flow Diagram

          Master Docket                   Master Docket status indicates that a request for hearing has been received in
             Status                       the hearing office. The hearing office may or may not have the claim file. No
                                          action is being taken on the case other than to log it in.

                                                                                             Case intake specialist and other
                                                    Dismissed                                employees screen for dismissals
                                    Yes                                 Written dismissal/
              Screening                                                                      and the administrative law judge
                                                                       favorable decision
       Can a decision be issued                                         sent to claimant
                                                                                             (ALJ) makes the dismissal
                                                                                             determination or senior attorneys
           after screening?                        Pay on Record
                                                      (expedite                              screens a claim for possible
                                                   without hearing)                          allowances.
           No

            Unassigned                 The claim is ready to be worked-up but has not yet been assigned.
           Workup Status


                Work-up                The claim has been assigned to a senior case technician or lead case technician
                 Status                for preparing exhibits and medical summaries.



            Pre-Hearing                Medical and other information has been requested for the claim prior to a
              Status                   hearing.


          ALJ Pre-Hearing
              Review                   The claim is with the ALJ for review prior to the hearing.
              Status


        Ready to Schedule              When all work-up, pre-development, contact and certification activity has been
             Status                    completed, the claim moves into the Ready to Schedule status.

                                       A claim enters Scheduled status when the claim has been scheduled for a
             Scheduled                 hearing with the claimant or representative. The next step (not listed as a status
               Status                  step) is the hearing itself.


            Post-Hearing               Post-Hearing status indicates that a hearing has been held on the claim and
               Status                  additional evidence has been requested. ALJ Post-Hearing Review is when a
                                       hearing has been held and the ALJ is examining the record after the hearing.


                Writing                The decision is being written either by the ALJ or the decision writer.
                Status


             Disposition               The claim is either in Sign status (awaiting an ALJ’s signature), Mail status (the
               Status                  ALJ has signed the claim), or Closed status (the claim has been mailed).


    Note: The status steps are used to track claims as they move through the hearing process.




Aged Claims at the Hearing Level (A-12-08-18071)
                                                   Appendix F

Agency Comments




Aged Claims at the Hearing Level (A-12-08-18071)
                                         SOCIAL SECURITY

MEMORANDUM


Date:      September 8, 2009                                                      Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Margaret J. Tittel /s/
           Acting Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Aged Claims at the Hearing Level”
           (A-12-08-18071)


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. We have attached our response to the report findings and
           recommendations.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.




           Aged Claims at the Hearing Level (A-12-08-18071)                                           F-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “AGED CLAIMS AT THE HEARING LEVEL” (A-12-08-18071)

We appreciate the report’s acknowledgement of our efforts, including sustained leadership and
focus, clear milestones, flexibility in moving workloads between offices, and the use of
management information reports to successfully target and help reduce the number of aged
claims. In addition, we appreciate the adoption of our recommendation to insert a chart in the
report (on page 3) graphically demonstrating the dramatic reduction in aged claims since the
inception of our Aged Claim initiative in fiscal year 2007.

We have several initiatives underway to reduce the overall backlog of hearings requests, which
have successfully reduced aged claims. For example, we have a backlog initiative which allows
us to search for cases we may process “on-the-record” without the need for a hearing. The
initiatives enabled us to reduce the disability backlog eight months in a row.

Our responses to the specific recommendations are as follows:

Recommendation 1

Ensure sustained focus on working the oldest claims first even after the Aged Claim initiative
has ended.

Comment

We agree. While we strive to process the oldest claims first, there are situations where we must
expedite other cases due to their critical nature (e.g. terminally ill and dire need cases).

Recommendation 2

Instruct field office managers on the importance of providing claims folders to the hearing
offices to allow for timely processing.

Comment

We agree. We will send out a reminder to our field offices on the importance of providing
claims folders to the hearing offices timely.

Recommendation 3

As the National Hearing Centers (NHC) expand their workload, ensure they are integrated into
agency efforts to minimize the volume of aged claims.




Aged Claims at the Hearing Level (A-12-08-18071)                                              F-2
Comment

We agree. When possible, we will integrate the NHCs into our efforts to minimize the volume
of aged claims. We designed the NHCs to work on cases from areas of the country in most need
of workload assistance. The NHCs only process electronic cases and only hold video hearings,
limiting the universe of claims we can integrate into the NHC.




[In addition to the information listed above, SSA also provided technical comments
which have been addressed, where appropriate, in this report.]




Aged Claims at the Hearing Level (A-12-08-18071)                                        F-3
                                                                     Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Walter Bayer, Director, Chicago Audit Division

   Nicholas Milanek, Audit Manager, Falls Church Office

Acknowledgments
In addition to those named above:

   Roger Like, Auditor-in-Charge

   Mary Ann Braycich, Senior Auditor

   Faisal Khan, Auditor

   Yaquelin Lara, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-12-08-18071.




Aged Claims at the Hearing Level (A-12-08-18071)
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
